No.
In the Supreme Court of the United States

EDWIN JURADO-NAZARIO,
PETITIONER
v.
UNITED STATES
RESPONDENT

PROOF OF SERVICE OF PETITION FOR WRIT OF CERTIORARI AND
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

I, Johnny Rivera-González, do hereby duly swear, declare, and certify that
on this date, January 13, 2021, as required by the Supreme Court Rule 29, I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelop containing the above documents in the United
States mail properly addressed to each of them and with first class priority postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3
calendar days.

1

The names and addresses of those served are as follows:
(1) Solicitor General of the United States, Room 5616, Department of
Justice, 950 Pennsylvania Avenue, N.W, Washington, D.C. 20530-0001;
(2) Mr. Stephen W. Muldrow, Esq., U.S. Attorney, U.S. Department of
Justice, Criminal Division, at Torre Chardón, Suite 1201, 350 Carlos
Chardón Street, San Juan, Puerto Rico 00918;
(3) Petitioner Edwin Jurado-Nazario, Inmate Registration Number
39701-069, at FCI Estill, Federal Correctional Institution, P.O. Box 699,
South Carolina 29918.
I declare under penalty of perjury that the foregoing is true and correct.
RESPECTFULLY SUBMITTED.
Executed at San Juan, Puerto Rico, on this 13th day of January, 2021.

/s/ Johnny Rivera-González
Johnny Rivera-González, Esq.
U.S.C.A. - First Cir. Bar No. 4896
U.S.D.C. - P.R. Bar No. 207710
P.O. Box 192397, San Juan, P.R. 00919-2397
Tel. (787) 470-4986
E-Mail: goodjrg@gmail.com

2

